aO'l^M2>

No.

Supreme Court, U.S.
FILED

APR 1 3 2021
OFFICE OF THE CLERK

In the

Supreme Court of tlje ®ntteb States
CANDACE AGUILERA,
Petitioner,
v.
CITY OF COLORADO SPRINGS, a municipality,
Respondent.

On Petition For Writ Of Certiorari To
The United States Court of Appeals for the 10th Circuit

PETITION FOR WRIT OF CERTIORARI

Pro se Candace Sgaggio
1850 North Academy Blv
Colorado Springs, Colorado
719 994 8181
Overclock420@hotmail.com

received
APR 1 5 2021

1

QUESTIONS PRESENTED

I ask the Supreme Court to clarify how long the government agents, can stay on the
Private spiritual property and continue to search, after the implied license to knock
and talk to has been revoked. The 10 circuit applies two cases to shut down my
spiritual free exercise claims by leaping over fourth amendment protections. In
United States v. Carloss, 818 F.3d 988, 990 (10th Cir. 2016) consent was given and
Carloss led officers to his room. In United States v. Shuck, 713 F.3d 563, 568 (10th
Cir. 2013) nobody was even home. However in my case, I was present. I objected to
the search not once but twice. Then I left my spiritual property because officers
would not leave, and threatened me.

Defendant Marshall Me Clarin became angry and threatened plaintiff I Candace
Aguilera, “If you do not let us in, nobody will be allowed in”. (Doc# 01110251778,
P.120)

This case is almost identical to Sause v. Bauer, 138 S. Ct. 2561, 129 S. Ct. 315, 201
L. Ed. 2d 982, 172 L. Ed. 2d 229 (2018). The 10th Circuit will not recognize womans
Spiritual rights. I am an indigenous woman born in the Farming community of
Lamar Colorado. I am a member of a protected class under the 14th amendment. I
don’t have an attorney but I do have Faith.

11

PARTIES TO THE PROCEEDING

Petitioner is Ms. Candace Sgaggio, who was the plaintiff—appellant in the Tenth
Circuit.

Respondents, who were defendants-appellees in the Tenth Circuit, are:

CITY OF COLORADO SPRINGS, a municipality; DANIELLE MCCLARIN, in her official
and individual capacity; ANGIE NEIVES, in her official and individual capacity; ROGER
VARGASON, in his official and individual capacity; BRETT LACEY, in his official and
individual capacity; ROBERT MITCHELL, in his official and individual capacity,

Ill

RELATED PROCEEDINGS

Aguilera v. City of Colorado Springs
l:18-cv-02125
The United States District Court District of Colorado

CANDACE AGUILERA vs City of Colorado Springs
No. 19-1398
10th Circuit Court of Appeals

IV

TABLE OF CONTENTS
Page
Questions Presented

1

n

Parties to the Proceeding
Related Proceedings

m

Table of Authorities

v

Opinions Below

1

Jurisdiction

1

Constitutional and Statutory Provisions Involved

1

Introduction

2

Statement of the Case

3

Reasons for Granting Relief

9
16

Conclusion
TABLE OF APPENDICES
Appendix A:
Order and Judgement United States Court
of Appeals for the 10th Circuit.....................

la

Appendix B:
Order From the United States District Court
for the District of Colorado ..............................

18a

Final Judgement From the United States District Court
for the District of Colorado ........... ........................................

39a

Appendix C:

V

TABLE OF AUTHORITIES
Cases
Abdulhaseeb v. Calbone,
600 F.3d 1301 (10th Cir. 2010)

Pages

14

Akhtar v. Mesa,

698 F.3d 1202 (9th Cir. 2012)

16

Butler v. Compton,
158 F. App’x 108 (10th Cir. 2005)

15

Camara v. Municipal Court,
67 Wn.2d 475, 408 P.2d 262 (1967)

10-11

Collins v. Virginia,
138 S. Ct. 1663 (2018)

10-11

Church of the Lukumi Babalu Aye, Inc. u. Hialeah,
508 U.S. 520 (1993).......................................................
Florida v. Jardines,
569 U.S. 1 (2013) ...

14

9

Fifth Avenue Presbyterian Church v. City of New York,
293 F.3d 570 (2d Cir. 2006) ...............................................

15

Hall v. Bellmon,
935 F.2d 1106 (10th Cir. 1991)

15

Hernandez v. Comm’r,
490 U.S. 680 (1989) ...

14

Jacobs v. Ramirez,
400 F.3d 105 (2d Cir. 2005)

16

Jehovah v. Clarke,
798 F.3d 169 (4th Cir. 2015)

16

Katz v. United States,
389 U.S. 347 (1967) ...
Kentucky v. King,

3, 10

VI

563 U.S. 452, 131 S. Ct. 1849, 179 L. Ed. 2d 865 (2011)
Roger u. Bryan,
523 F.3d 789 (7th Cir. 2008)

9, 10

14, 15

Lyng v. Nw. Indian Cemetery Protective Ass’n,
485 U.S. 439 (1988)..............................................

14

O’Lone v. Estate of Shabazz,
482 U.S. 342 (1987).............

14

Sause v. Bauer,
138 S. Ct. 2561, 129 S. Ct. 315 (2018)

i, 13

See v. City of Seattle,
387 U.S. 541 (1967) .

10-11

Thomas v. Review Bd.,
450 U.S. 707 (1981) ....

14-15

United States v. Carloss,
818 F.3d 988 (10th Cir. 2016)

i, 4,5

United States v. Shuck,
713 F.3d 563 (10th Cir. 2013)

i, 3,4

Walker v. Schult,
717 F.3d 119 (2d Cir. 2013)

15

Wisconsin v. Yoder,
406 U.S. 205 (1972)

14

Yellowbear v. Lampert,
741 F.3d 48 (10th Cir. 2014)

14

Constitutional Provisions
U.S Constitution 1st Amendment

passim

U.S Constitution 4th Amendment

passim
Statutes

42 U.S.C. § 1983

2

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Candace Sgaggio respectfully petitions for a writ of certiorari to
review the judgment of the U.S. Court of Appeals for the Tenth Circuit.

OPINIONS BELOW

UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT No. 191398 (Appendix A la-16a)

The United States District Court District of Colorado No. 1:18-CV- 02125
KMT (Appendix B 18a-38a)

JURISDICTION

The U.S. Court of Appeals for the Tenth Circuit entered its order and
judgment (Appendix A la-16a) on Nov 18, 2020

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254. (1)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Fourth Amendment to the U.S. Constitution Provides
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches
and seizures, shall not be violated, and no warrants shall
issue, but upon probable cause, supported by oath or

2

affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.

First Amendment
Congress shall make no law respecting an establishment
of religion, or prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the press; or the
right of the people peaceably to assemble, and to petition
the Government for a redress of grievances

42 U.S.C. § 1983 provides, as relevant here:
Every person who, under color of any statute, ordinance,
regulation, custom, or usage, of any State or Territory or
the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person
within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured
in an action at law, suit in equity, or other proper
proceeding for redress ....
INTRODUCTION

The 10th circuit has for some time now, eroded protections guaranteed by the fourth
amendment, by using multiple different 10th circuit knock and talk cases.

In my case however the implied license, that is intertwine with the knock and talk
had been revoked, resulting in the Government violating my reasonable right to
privacy.

3

As the Court's opinion states, "the Fourth Amendment protects people, not places."
The question, however, is what protection it affords to those people. Generally, as
here, the answer to that question requires reference to a "place." My understanding
of the rule that has emerged from prior decisions is that there is a twofold
requirement, first that a person have exhibited an actual (subjective) expectation of
privacy and, second, that the expectation be one that society is prepared to
recognize as "reasonable."

Katz v. United States, 389 U.S. 347, 361 (1967)

STATEMENT OF THE CASE

10 circuit allows the following rulings to Side Step Katz v. United States, 389 U.S.
347, 361 (1967)

However in my case the implied license that comes with a knock and talk left at
11:34 and 11:38. We ask the Supreme Court to clarify how long the government
agents, can stay on the property and continue to search, after the implied license to
knock and talk has been revoked.

In any event, the Fourth Amendment is not implicated where officers are on private
property and perform a so-called “knock and talk.” See United States v. Shuck, 713
F.3d 563, 568 (10th Cir. 2013) (holding that “officers did not violate the Fourth
Amendment when they approached [a] trailer’s back door with an intent to speak to

4
its occupants regarding the reported odor of marijuana” and saw in plain view a
PVC pipe that smelled of marijuana). “Observations made from such vantage points
are not covered by the Fourth Amendment.” Id. at 567 (brackets and internal
quotation marks omitted); see also Carloss, 818 F.3d at 993 (“The mere purpose of
discovering information in the course of engaging in [a knock and talk] does not
cause it to violate the Fourth Amendment.”). Thus, Officer Vargason did not need a
warrant to photograph Aguilera’s license plate while on GreenFaithMinistry porch.
(10th Circuit ORDER , Appendix 14a)

On two different occasions it’s clear that, I would not consent to a search.

Also the cases is the 10th circuit uses are not relevant to my circumstances.

“Detective Ruhman then knocked at the back door but received no response. ”
United States v. Shuck, 713 F.3d 563, 565 (10th Cir. 2013)

In my case. I told respondents, “If you want in the building you will have to contact
Reverend Baker, I will not let you in,”

The second time I stated “this is private property do you have a warrant?”

United States v. Shuck cannot apply to my case. It is clear I revoke the implied
license of a knock and talk.

10 circuit also states Carloss, 818 F.3d at 993.

5
But in United States u. Carloss the implied license for a knock and talk was intact
because consent was given. In my case there was no consent, the implied license for
the knock and talk was revoked.

When the officers asked Carloss if they could search the home, Carloss told them he
would have to get “the man of the house,” referring to Dry. (Id.) As Carloss started
to go inside, apparently to get Dry, the officers asked if they could go in with
Carloss; he said, “sure.” (Id. at 19.)

Carloss and the officers entered the back door, went through a storage or “mud”
room into a room that Carloss identified as his. (Id. at 34.) In Carloss's room, the
officers saw drug paraphernalia and a white powder residue that appeared to be
methamphetamine.

United States v. Carloss, 818 F.3d 988, 991 (10th Cir. 2016)

The following is from my Amended Complaint. Doc# 01110251778 is from 10 circuit
Appellate case 19-1398, Filed 10/29/2019

18. On July 10, 2017 approximately 11:30 AM Candace Aguilera : Property
manager, Volunteer, High Priestess (second minster in command), member, etc.
who leases two rooms at the Establishment located at 1850 North Academy was
confronted by Defendants Officer Roger Vargason, Marshall's Danielle Me Clarin

6

and Angie Nieves outside GreenFaithMinistry Church 1850 North Academy Blvd.
(Doc# 01110251778 P.120)

19. Defendant Fire Marshall Danielle Me Clarin persecuted Plaintiff I Candace
Aguilera “We are here to check the occupancy of the building.“ (All evidence point in
a different direction.) Plaintiff I Candace Aguilera responded “If you want in the
building you will have to contact Reverend Baker, I will not let you in, ” Defendant
Marshall Me Clarin became angry and threatened plaintiff I Candace Aguilera, “If
you do not let us in, nobody will be allowed in”. Which deprived
GreenFaithMinistry, Plaintiff I Candace Aguilera, members via Guilt by
Association, of it's spiritual/religious free exercise, mission, censorship, necessary
business for a spiritual/religious establishment to sustain itself, suppression,
spiritual/religious activities, etc.. (Doc# 01110251778 P.120)

24. At 11:34 AM. On Camera 8,9 Plaintiff I Candace Aguilera confronts on privately
owned property and GreenFaithMinistry spiritual/religious property Defendants
Vargason, Nieves and Me Clarin who are persecuting a spiritual/religious
establishment, its members and asks for identification. Defendant Marshall Me
Clarin became angry and threatened plaintiff I Candace Aguilera, “If you do not let
us in, nobody will be allowed in”. Which deprived GreenFaithMinistry, Plaintiff I
Candace Aguilera, members via Guilt by Association, of it's spiritual/religious free
exercise, mission, censorship, necessary business for a spiritual/religious
establishment to sustain itself, suppression, spiritual/religious activities, etc. This

7

Order affectedly illegally seizes the Establishment in violation of the 4th
amendment and was the Direct order that made, I Candace Aguilera and four other
church members/volunteers/ vacate their place of worship. Which leads Plaintiff I
Candace Aguilera to believe members of GreenFaithMinistry including myself were
persecuted via Guilt by Association.(Exhibit 5,6) (Doc# 01110251778 P.123)

28. At 11:38 AM. on Camera 9 (Exhibit 11,12) Defendant Officer Roger Vargason
can be seen pulling forcefully on the secured entrance doors, illegally trespassing
outside on private property and attempting to illegally enter GreenFaithMinistry
private property building without a legit warrant nor providing one. Defendant
Roger Vargason persecuted GreenFaithMinistry members and volunteers to “Open
the door” Plaintiff I Candace Aguilera came to the door. (Doc# 01110251778 P.127)

Defendant Officer Roger Vargason points in a demanding manner at Plaintiff I
Candace Aguilera, Defendant Officer Roger Vargason unlawfully orders and
persecuted Plaintiff I Candace Aguilera via abuse of limited power, coercion,
intimidation to “Open this door. If you do not open this door, you will be in trouble”
Defend Roger Vargason then uses all his weight and leans noticeably back in
attempt to pull the secured entrance door. Plaintiff I Candace Aguilera responds
“this is private property do you have a warrant? This angers Defendant Officer
Roger Vargason who reply's “Oh now I am talking to Rob Corry” (Marijuana lawyer
out of Denver) Defendant Officer Roger Vargason continues to attempt to
unlawfully, lawlessly, arbitrary, forcefully open secured doors in violation of Art. 6,

8

Clause 2 Supremacy Clause, Constitutions, Fourth Amend.. Defendant Officer
Roger Vargason also continues to maliciously threaten plaintiff I Candace Aguilera.
Defendant Officer Roger Vargason makes the false, unjustified accusation and
persecuted statement “we know you have an illegal grow in there.” Defendant
Officer Roger Vargason also made the false, unjustified accusation and persecuted
statement “what you’re doing is illegal.” It is very disturbing and clear the real
reason why these government agents where at GreenFaithMinistry and it wasn't for
no occupancy or within their capacity, but instead to violate Art. 6, Clause 2
Supremacy Clause, Constitutions, First Amend. Guilt by Association,
Establishment Clause, Free Exercise Clause Viewpoint and Idea, Fourth Amend.
No Search Clause, Plaintiff I Candace (Doc# 01110251778 P.128)

At 11:44 on cameras 8,9 Defendant Roger Vargason can be seen taking pictures of
Members license plates, including the vehicle that Plaintiff I Candace Aguilar
drives. (Exhibits 14,15) (Doc# 01110251778 P.133)

At 12:09 AM. On Camera 9. Defendant Fire Marshall Angie Nieves is viewed
unlawfully questioning and interrogating a GreenFaithMinistry member who is
reading the schedule at the secured doors. At this time the Establishment had
already been seized by and unlawful order given by Defendant Marshall Me Clarin..
None of Defendant Marshall, Angie Nieves questioning and interrogating has
anything to do with occupancy, limited granted power, etc (Exhibits 14,15) (Doc#
01110251778 P.133)

9
At 12:12 AM. On camera 8 GreenFaithMinistry member get intimidation and
persecuted away by Defendant Officer Roger Vargason, Marshalls Nieves and Me
Clarin acting suspiciously by Rocks bar directly south of GreenFaithMinistry.
(Exhibit 17) 36. Defendant Officer Roger Vargason, Marshalls Me Mclarin, and
Nieves leave GreenFaithMinistry at 12:17pm. (Doc# 01110251778 P.135)

REASONS FOR GRANTING RELIEF
This implicit license typically permits the visitor to approach the home by the front
path, knock promptly, wait briefly to be received, and then (absent invitation to
linger longer) leave. Complying with the terms of that traditional invitation does
not require fine-grained legal knowledge; it is generally managed without incident
by the Nation's Girl Scouts and trick-or-treaters. Thus, a police officer not armed
with a warrant may approach a home and knock, precisely because that is “no more
than any private citizen might do.” Kentucky v. King, 563 U.S. 452, 469, 131 S. Ct.
1849, 179 L. Ed. 2d 865, 881 (2011).

Florida v. Jardines, 569 U.S. 1, 11 (2013)

Action by Respondents violates the above law. “absent invitation to linger longer”
the invitations to linger was revoked before respondents even knocked. The 10th
circuit is more concerned with protecting officers. They care not about my rights. I
do not fit the white male Christian mold, therefore I don’t have the right to exercise
freely.

10
The Tenth Circuit’s decision in my case is errored. I revoked the implied license
that is present during a knock and talk in Kentucky v. King, 563 U.S. 452, 131 S. Ct.
1849, 179 L. Ed. 2d 865 (2011). After not once but twice giving statements that
show I did not consent to the search. The implied license was removed. By doing so
I restored my expectation of privacy. Society also has reasonably recognized that if
officers do not have a warrant they are not allowed to stay and search.

“My understanding of the rule that has emerged from prior decisions is that there is
a twofold requirement, first that a person have exhibited an actual (subjective)
expectation of privacy and, second, that the expectation be one that society is
prepared to recognize as "reasonable."” Katz v. United States, 389 U.S. 347, 361
(1967)

Warrant is required to search a private commercial premise.

“A suitable warrant procedure held required by the Fourth Amendment to effect
unconsented administrative entry and inspection of private commercial premises.
Cf. Camara u. Municipal Court, ('1967)” See v. City of Seattle, 387 U.S. 541, (1967)

This Case Merits a reversal. Just like in the See v. City of Seattle, 387 U.S. 541,
(1967) and Collins v. Virginia, 138 S. Ct. 1663, 1675 (2018)

11
“The judgment of the Supreme Court of Virginia is therefore reversed, and the case
is remanded for further proceedings not inconsistent with this opinion.” Collins v.
Virginia, 138 S. Ct. 1663, 1675 (2018)

“A suitable warrant procedure held required by the Fourth Amendment to effect
unconsented administrative entry and inspection of private commercial premises.
Cf. Camara v. Municipal Court, ante, p. 523. Pp. 542-546. 67 Wn.2d 475, 408 P.2d
262, reversed.” See v. City of Seattle, 387 U.S. 541, (1967)

Evidence from pictures my Amended shows that I left the building before 12:12.

Seizure Aguilera contends that Fire Marshall McClarin’s threat, “If you do not let
us in, nobody will be allowed in,” “illegally seize [d] [GreenFaithMinistry] in
violation of the 4th [Ajmendment.” Aplt. Opening Br. at 44. We conclude that
Aguilera has standing to advance this claim to the extent it is based on her leasing
of two rooms in the building. But she fails to allege that any defendant
meaningfully interfered with her possessory interests in the building. See United
States v. Shrum, 908 F.3d 1219, 1229 (10th Cir. 2018) (observing that “a Fourth
Amendment ‘seizure’ occurs when there is some meaningful government
interference with an individual’s possessory interests in property” (alterations and
internal quotation marks omitted)). As we have already observed, following Fire
Marshall McClarin’s alleged threat, Aguilera entered the building, locked the door,
excluded the officers, and then later exited the building without being asked to

12
leave. Thus, no Fourth Amendment seizure occurred. (10th circuit order Apendix
15a)

I did not immediately leave I had to gather my things and make sure doors were
locked, but the order did force me out of my building. I did follow the order given to
me by respondent.

Defendant Marshall Me Clarin became angry and threatened plaintiff I Candace
Aguilera, “If you do not let us in, nobody will be allowed in”. Which deprived
GreenFaithMinistry, Plaintiff I Candace Aguilera, members via Guilt by
Association, of it's spiritual/religious free exercise, mission, censorship, necessary
business for a spiritual/religious establishment to sustain itself, suppression,
spiritual/religious activities, etc. (Doc# 01110251778 P.120)

At 11:44 on cameras 8,9 Defendant Roger Vargason can be seen taking pictures of
Members license plates, including the vehicle that Plaintiff I Candace Aguilar
drives. (Exhibits 14,15) (Doc# 01110251778 P.133)

Exhibits (14,15) show three cars a white 4 runner, grey ford and a red jeep. All
three cars were present at 11:44.

Exhibit 16,17 contained in this petition show that my car and the other members
cars were all gone by 12:12 showing that I had left the building after it was seized
by respondents order.

13
I do not have to be praying for my Free exercise to be burdened.

Aguilera’s own allegations belie the coercive or compulsory nature of Fire Marshall
McClarin’s threat. She alleges that immediately after Fire Marshall McClarin made
the threat, she went inside GreenFaithMinistry and locked the entry door behind
her. Indeed, she remained inside with the door locked, refused to open it even as
Officer Vargason pulled on it and told her to open it, and she declared, “this is
private property do you have a warrant?” R. at 128. It is unclear when she finally
exited GreenFaithMinistry. Given these allegations, Aguilera has failed to assert a
connection between Fire Marshall McClarin’s threat (even when viewed together
with Officer Vargason’s actions) and her decision to vacate GreenFaithMinistry.
Significantly, Aguilera has not alleged that Fire Marshall McClarin (or any other
officer) ever ordered her to vacate the building. (10th circuit ORDER, Appendix 11a)

The pictures in my Amend complaint and this petition make it clear I left before
12:12.

But Sause has no apparent application here. Aguilera does not assert in her
complaint that she was ordered to stop praying or worshipping in any manner. Nor
does she allege that she was engaged in prayer or worship inside
GreenFaithMinistry at any time during the officers’ presence outside the building.
Further, as discussed below, the officers were lawfully present on the porch outside
GreenFaithMinistry when they communicated with Aguilera. In short, Aguilera has
failed to allege that any defendant burdened her exercise of religious beliefs or

14
practices. Thus, the district court did not err in dismissing her Free Exercise claim.
(10th circuit ORDER, Appendix 12a)

We disagree Forcing one out of their church for no legitimate law enforcement
reason does burden ones free exercise.

A burden “rises to the level of being ‘substantial’ when” the government “prevents
the plaintiff from participating in an activity motivated by a sincerely held religious
belief’ or “present[s] an illusory or Hobson’s choice where the only realistically
possible course of action available . . . trenches on sincere religious exercise.”
Yellowbear, 741 F.3d at 55 (citing Abdulhaseeb v. Calbone, 600 F.3d 1301, 1315
(10th Cir. 2010), Lyng v. Nw. Indian Cemetery Protective Ass’n, 485 U.S. 439, 450
(1988), and Thomas v. Review Bd., 450 U.S. 707, 716 (1981)). See also Roger v.
Bryan, 523 F.3d 789, 802 (7th Cir. 2008) (“the prohibition against substantially
burdening sincerely held religious beliefs is well-established in Free Exercise
Clause cases”).

This Court repeatedly has made clear that government action that substantially
burdens a citizen’s religious exercise is unconstitutional unless it furthers some
legitimate government interest. See, e.g., Lukumi, 508 U.S. at 531—32; Hernandez v.
Comm’r, 490 U.S. 680, 699 (1989); Wisconsin v. Yoder, 406 U.S. 205, 215 (1972). See
also O’Lone v. Estate of Shabazz, 482 U.S. 342, 348—53 (1987). As this Court
reiterated in Lukumi, government action that substantially burdens religious
exercise must be “justified by a compelling governmental interest” and “narrowly

15
tailored to advance that interest.” 508 U.S. at 531-32. See Roger, 523 F.3d at 802—
03 (“the difficult burden laid on a defendant who must show that its conduct was
the ‘least restrictive means of achieving some compelling state interest’ has been
established for decades”) (emphasis added) (quoting Thomas, 450 U.S. at 718).

In Fifth Avenue Presbyterian Church v. City of New York, for example, the Second
Circuit ruled that officers who dispersed homeless persons from church property
violated the church’s free exercise rights because the officers had neither
“sufficiently shown the existence of a relevant law or policy that is neutral and of
general applicability” that justified their actions nor demonstrated that their
actions were “justified by a compelling state governmental interest.” 293 F.3d 570,
576 (2d Cir. 20020)

I pray the court recognizes, because Candace Sgaggio proceeded pro se, this Court
“must construe [her] complaint liberally, holding [her] to a less stringent standard
than formal pleadings drafted by lawyers.” Butler v. Compton, 158 F. App’x 108, 110
(10th Cir. 2005). “This rule means that if the court can reasonably read the
pleadings to state a valid claim on which the plaintiff could prevail, it should do so
despite the plaintiffs failure to cite proper legal authority, his confusion of various
legal theories, his poor syntax and sentence construction, or his unfamiliarity with
pleading requirements.” Id. (quoting Hall v. Bellmon, 935 F.2d 1106, 1110 (10th
Cir. 1991)); see Walker v. Schult, 717 F.3d 119, 124 (2d Cir. 2013) (pro se Appellate
Case: 16-3231 Document: 01019697696 Date Filed: 09/28/2016 Page: 29 18

16
complaints “must be construed liberally, ‘to raise the strongest arguments [they]
suggest”’).1

CONCLUSION

I pray that the court will accept my petition. I pray that safeguards set in place by
the framers, under the fourth amendment will be replenished not watered down by
the 10th circuit. I asked that the opinion handed down by the 10th circuit is
reversed. I pray that I will be allowed to freely exercise and feel safe free from
government intrusions.

Respectfully submitted

Pro se Candace Sgaggio
1850 North Academy Blv
Colorado Springs, Colorado
719 994 8181
Qverclock420@hotmail.com
4/13/2021

[L]iberal construction of the pleadings is particularly appropriate where, as here, there is a pro se
complaint raising civil rights issues.” Jehovah v. Clarke, 798 F.3d 169, 176 (4th Cir. 2015); see
Akhtar v. Mesa, 698 F.3d 1202, 1212 (9th Cir. 2012) (“[Courts] have an obligation where the
petitioner is pro se, particularly in civil rights cases, to construe the pleadings liberally and to afford
the petitioner the benefit of any doubt.”); Jacobs v. Ramirez, 400 F.3d 105, 106 (2d Cir. 2005)
(“[W]hen the plaintiff proceeds pro se, as in this case, a court is obliged to construe his pleadings
liberally, particularly when they allege civil rights violations.”).
i “

